iFG (07-90)


United States Government                                                                          Department of Enerav

Mem orandum                                                                                             Office of Inspector General




              DATE:     FEB 18 2005                                                     Audit Report No.: OAS-L-05-03.
      REPLY TO
      ATTN OF:        IG-34 (A04NE005)

      SUBJECT:        Audit of the Office of Science Security Procedures

                TO:   Director, Office of Science, SC-1


                      INTRODUCTION AND OBJECTIVE

                      The U.S. Department of Energy's (Department) Office of Science (Science) is the single
                      largest supporter of basic research in the physical science s in the United Statesi
                      providing more than 40 percent of total funding for this vital area of national
                      importance. It oversees and is the principal Federal funding agency of the Nation's
                      research programs in high energy physics, nuclear physics, and fusion energy sciences.
                      Science plays a critical role in advancing and underpinning the national security,
                      economic security, and energy security of the United States.

                      The safeguards and security mission of Science is to ensure that appropriate levels of
                      protection exist to prevent unauthorized access, theft, dive:rsion, loss of custody or
                      destruction of assets and hostile acts that may cause adverse impacts on fundanental
                      science, national security or the health and safety of Federid and contractor erriployees,
                      the public or the environment. The objective of our audit was to determine whether
                      physical security measures were adequate to identify and address potential secority
                      threats at Office of Science sites.

                      CONCLUSIONS AND OBSERVATIONS

                      At the time of our review, we found that Science had not: conducted threat and risk level
                      assessments to address heightened security risks since the events of
                      September 11, 2001. For example, we noted that Science managed sites and facilities
                      had not completed site surveys necessary to respond to tahe Department's May '2003
                      Design Basis Threat (DBT) requirements. DBT activities, implemented through
                      contractor self-assessments and field office comprehensive surveys, are intended to
                      provide the foundation for all of the Department's protective strategies. Although the
                      Department's DBT guidance was issued in May 2003, as of July 2004, the majority of
                      the required periodic site surveys had not been completed.
    We also observed that site security plans, developed by each site to depict the existing
    condition of safeguards and security site-wide, site specific characteristics, security
    interests, the general threat, and graded protection strategies, were not always
    up-to-date. In particular, four of the six site security plans we reviewed were completed
    prior to the issuance of the May 2003 DBT guidance.

    After we completed our site visits we learned that Science has initiated action to
    reassess the threat level and risk at their laboratory sites based on the May 2003 DBT
    guidance. For example, a site review was recently completed for the Argonne National
    Laboratory-East. Sites are also in the process of initiating action in response to the new
    DBT policy issued by the Deputy Secretary in October 20D4, that addresses additional
    threat levels, including those related to biosafety class facilities and toxic industrial
    chemicals. Currently, site managers have until December 2005 to submit a
    recommended threat level for each science facility.

    In light of these recent actions taken by Science and the issuance of the October 2004
    policy addressing additional threat levels, we have elected to discontinue this audit.
    Depending on progress in this area and our on-going risk assessment process, we may
    choose to conduct additional audit work at a later date.

    Since no recommendations are being made in this report, a formal response is not
    required. We appreciated the cooperation of your staff throughout the audit.



                                           Rickey R. Hass, Director
                                           Science, Energy, Technology
                                             and Financial Audits
                                           Office of Audit Services
                                           Office of Inspector General

    Attachment

    cc: Team Leader, Audit Liaison, ME-100
        Audit Liaison, SC-67




                                                 2
i
                                                                              Attachment

METHODOLOGY

To accomplish the audit objective, we:

     *    Reviewed laws, regulations, policies and procedures relevant to physical
          security at the Department's Office of Science sites;
     *    Reviewed site security plans, other security related documents, and site
          specific guidance where available;
     *    Held discussions with Headquarters program officials regarding Office of
          Science physical security at the Department;
      *   Held discussions with officials from Brookhaven National Laboratory,
          Argonne National Laboratory, and Fermi National Accelerator Laboratory
          regarding physical security at the individual sites; and,
      *   Held discussions with local law enforcement officials from jurisdictions
          surrounding the laboratory sites regarding local threats.

We conducted the audit according to generally accepted Government auditing standards
for performance audits and included tests for internal controls and compliance with
laws and regulations to the extent necessary to satisfy the audit objective. We also
assessed performance measures in accordance with the Government Performance and
Results Act of 1993 regarding the Department's physical security. Because our review
was limited, it would not necessarily have disclosed all internal control deficiencies that
may have existed at the time of our audit. We did not rely on computer processed data
to accomplish our audit objective.

 Management waived the exit conference.




                                              3
DOE F 1325.8
(08-93)
United States Government                                                         Department of Energy


Memorandum
        DATE:   FEB 23 2005
    REPLY TO
    ATTN OF:    IG-34 (A04NE005)

    SUBJECT:    Final Report Package for "Audit of the Office of Science Security Procedures"
                Audit Report Number: OAS-L-05-03
          TO:   George W. Collard, Assistant Inspector General for Audit Operations

                Attached is the required final report package on the subject audit. The pertinent details are:
                1. Actual Staff days:          372
                   Actual Elapsed days:        310
                   Actual Elapsed days less Suspended days: 165

                2. Names of OIG and/or contractor audit staff:
                   Assistant Director:         George Collard
                   Team Leader:                Darryl Wittenburg
                   Auditor-in-Charge:          Veronica Rutt
                   Audit Staff:                Tom Barwatt
                3. Coordination with Investigations and Inspections:
                   Investigations:             Brenda Froberg
                                               April 5, 2004
                   Inspections:                Geoff Gray
                                               April 5, 2004




                                                      Rickey R. Hass, Director
                                                      Science, Energy, Technology,
                                                       and Financial Audits Division
                                                      Office of Audit Services
                                                      Office of Inspector General
                Attachments:
                1. Final Report
                2. Monetary Impact Report
                3. Audit Project Summary Report
                4. Audit Database Information Sheet
                        MONETARY IMPACT OF REPORT NO.: OAS-L-05-03


1. Title of Audit:      Audit of the Office of Science Security Procedures

2. Division:            Science, Energy, Technology, and Financial Audits Division

3. Project No.:         A04NE005

4. Type of Audit:

       Financial:                                         Performance:       X
          Financial Statement                               Economy and Efficiency                X
          Financial Related                                 Program Results
       Other (specify type):

5. Please report monetary savings identified in the report using applicable columns. Provide
additional explanations of audited activities/locations in Section No. 6 - Remarks.

                                                                                                 MGT.     POTENTIAL
            FINDING               COST                        QUESTIONED COSTS                 POSITION    BUDGET
                                AVOIDANCE                                                                  IMPACT
(A)             (B)           (C)       (D)         (E)          (F)      (G)        (H)          (I)        (J)
                Title         One    Recurring   Questioned    Unsup-   Unre-       Total      C=Concur     Y=Yes
                            .Time     Amount                   ported   solved   (E)+(F)+(G)   N=Noncon     N=No
                                      PerYear                                                  U=Undec

      N/A




TOTALS--ALL FINDINGS




6. Remarks: In light of recent actions and the issuance of the October 2004 policy addressing
            additional threat levels, we have elected to discontinue this audit.


7. Contractor:   N/A                                 10. Approvals:           '
8. Contract No.:   N/A                               Division Director/Date:  &                  2/-   0,
9. Task Order No.:   N/A                             Technical Advisor & Date                     R L1
                                              Office of the Inspector General (OIG)
                                        Audit Project Office Summary (APS)
                                                                                                                               Page 1
Report run on:                    February 22, 2005 3:47 PM


  Audit#: A04NE005               Ofc:   CGA     Title: OFFICE OF SCIENCE SECURITY PROCEDURES

                                                             ****    Milestones    ****
                                               Planned             End of Survey                Revised          Actual


   Entrance Conference:.....                  01-OCT-03                                       14-APR-04       14-APR-04

   Survey: ..................
   Draft Report:............
   Completed (With Report):.                  30-SEP-04                                       22-FEB-05       18-FEB-05   (R
   ------------      Elapsed Days:                    365                                 .        314             310
                                                                                                   Elap. Less Susp:       165
   Date Suspended:               01-OCT-04                        Date Terminated:
   Date Reactivated:                                        Date Cancelled:
   DaysSuspended(Cur/Tot):               145 (         145) Report Number:                OAS-L-05-03
   Rpt Title:                                                     Report Type:            LTR      LETTER REPORT
   AUDIT OF THE OFFICE OF SCIENCE SECURITY PROCEDURES


                                               ****    Audi        Codes , and Personnel ***
   Class:    PER          PERFORMANCE
   Function: 005         SAFEGUARDS AND SECURITY
  MgtChall: 005          NATIONAL SECURITY (F
                                                                                 AD:      459       COLLARD
   Site:          MSA    MULTI-SITE AUDIT
                                                                              AIC:        471       RUTT
   SecMiss:       HLD    HOMELAND DEFENSE (PE
                                                                         Team Ldr:        381       WITTENBURG
   PresInit:             Not Found                                      Tech Adv:         84        CROWDER

                                                 S****Task Information ****                          :

          Task No:
          Task Order Dt:                                          CO Tech. Rep:
          Qrig Auth Hrs:                                          Orig Auth Costs:
          Current Auth:                                           Current Auth Cost:
          Tot Actl IPR Hr:                                        Tot Actl Cost:


                                                       ****       Time Charges ****

                     Emp/Cont Name              Nudays                  Last Date

                     WITTENBURG, D                          3.6        19-FEB-05
                     NELSON, J                              6.1        19-FEB-05
                     LEWANDOWSKI, R                     53.1           25-DEC-04
                     RUTT, V                           149.5           19-FEB-05
                     BARWATT, T                        159.9           05-FEB-05
                        Total:                         372.2
                                                                                             Attachment 4

                          AUDIT DATABASE INFORMATION SHEET


1. Project No.: A04NE005

2. Title of Audit: Audit of the Office of Science Security Procedures

3. Report No./Date: OAS-L-05-03/February 18,2005

4. Management Challenge Area: 005

5. Presidential Mgmt Initiative: N/A

6. Secretary Priority/Initiative: HLD

7. Program Code: N/A

8. Location/Sites: MSA/AGO, ANL, BNL, BNY, FNL, FSO, HCN, HER, HSA

9. Finding Summary:

   At the time of our review, we found that Science had not conducted threat and risk level
   assessments to address heightened security risks since the events of September 11, 2001. After we
   completed our site visits, we learned that Science had initiated action to reassess the threat level and
   risk at their laboratory sites based on the May 2003 DBT guidance. Sites are also in the process of
   initiating action in response to the new DBT policy issued by the Deputy Secretary in October 2004,
   that addresses additional threat levels, including those related to biosafety class facilities and toxic
   industrial chemicals. In light of these recent actions taken by Science and the issuance of the
   October 2004 policy addressing additional threat levels, we have elected to discontinue this audit.

10. Keywords:         Safeguards and Security
                      Office of Science
                      Argonne National Laboratory
                      Brookhaven National Laboratory
                      Fermi National Accelerator Laboratory
                      Office of Security
                      Office of Counterintelligence
